£
-

Appellate Case: 20-3036

Document: 010110448638

Date Filed: 12/08/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257

(303)844-3157
Christopher M. Wolpert
Clerk of Court

December 08, 2020

Jane K. Castro
Chief Deputy Clerk

Ms. Jenita Clancy
P.O. Box 604
St. Robert, MO 65584
RE:

20-3036, Clancy v. Miller
Dist/Ag docket: 5:18-CV-04106-SAC

Dear Appellant:
Enclosed is a copy of the order and judgment issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

cc:

Christopher Allman
Luke P. Sinclair

CMW/mlb

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

UNITED STATES COURT OF APPEALS

;Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

December 8, 2020
Christopher M. Wolpert
Clerk of Court

JENITA CLANCY,
Plaintiff - Appellant,
v.
CHRISTOPHER C. MILLER*, Acting
Secretary of Defense,

No. 20-3036
(D.C.No. 5:18-CV-04106-SAC)
(D. Kan.)

Defendant - Appellee.
ORDER AND JUDGMENT**
Before TYMKOVICH, Chief Judge, MURPHY and PHILLIPS, Circuit Judges.
Pro se plaintiff Jenita Clancy started working for the Defense Commissary
Agency at Fort Riley in November 2015. In the summer and fall of 2016, she
received negative performance evaluations. And in November 2016, she resigned

* We have substituted Christopher C. Miller, the current acting Secretary
of Defense, for Mark T. Esper, the former Secretary of Defense. See Fed. R. App. P.
43(c)(2).
** After examining the briefs and appellate record, this panel has determined
unanimously to honor the parties’ request for a decision on the briefs without oral
argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

!

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

|Page: 2

after a meeting with her supervisors. She later unsuccessfully tried to withdraw her
resignation.
Clancy filed this lawsuit just over a year later, claiming under the
Rehabilitation Act, 29 U.S.C. § 794, that her supervisors at Fort Riley discriminated
against her and subjected her to a hostile work environment because of her
disability—anxiety, depression, and post-traumatic stress disorder (PTSD). The
district court granted summary judgment to the defense.
In this appeal, Clancy challenges the summary judgment and several other
rulings the district court made along the way. We construe her pro se pleadings
liberally, without going so far that we act as her advocate. See Hall v. Bellmonl
935 F.2d 1106, 1110 (10th Cir. 1991). Seeing no error, we affirm.
I. Discretionary Rulings
Clancy argues that the district court erred when it (1) denied her leave to
amend her complaint, (2) excluded her exhibits under local rules, and (3) denied her
leave to file a surreply opposing summary judgment. We review these rulings for an
abuse of discretion. Tesone v. Empire Mktg. Strategies, 942 F.3d 979, 989 (10th Cir.
2019) (leave to amend); Certain Underwriters at Lloyd’s London v. Garmin Ini 7,
Inc., 781 F.3d 1226, 1230 (10th Cir. 2015) (applying local rules); Green v. Neyy
Mexico, 420 F.3d 1189, 1196 (10th Cir. 2005) (surreply). “A district court abuses its
discretion if its decision is arbitrary, capricious, whimsical, or manifestly
unreasonable.” Tesone, 942 F.3d at 989 (internal quotation marks omitted).

2

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 3

A. Motion to Amend the Complaint
In May 2019, after the deadlines for discovery and motions to amend had
passed, Clancy sought to add claims for retaliation and constructive discharge under
Title VII of the Civil Rights Act of 1964. She explained that she realized in March
2019 that she could not bring some of her claims under the Rehabilitation Act, and
she sought to correct her mistake by adding claims under Title VII. The district court
denied the motion, finding that allowing the amendment would require more
discovery and that Clancy did not offer a persuasive reason to allow the amendment.
District courts should freely give leave to amend “when justice so requires.”
Fed. R. Civ. P. 15(a)(2). But a “schedule may be modified only for good cause and
with the judge’s consent.” Fed. R. Civ. P. 16(b)(4). In this context, good cause
exists if the movant cannot meet the schedule’s deadlines despite diligent efforts.
Gorsuch, Ltd., B.C. v. Wells Fargo Nat 7 Bank Ass % 111 F.3d 1230, 1240 (10th Cir.
2014). “A party seeking leave to amend after a scheduling order deadline must
satisfy both the Rule 16(b) and Rule 15(a) standards.” Tesone, 942 F.3d at 989. If
the moving party fails to satisfy either standard, then the district court does not abuse
its discretion by denying leave to amend. Id.
We cannot say that the district court abused its discretion. Clancy’s oversight
does not amount to good cause. See Gorsuch, 771 F.3d at 1240 (“If the plaintiff
knew of the underlying conduct but simply failed to raise tort claims, however, the
claims are barred.”). True, as Clancy highlights, she mentioned Title VII, retaliation,
and constructive discharge in earlier pleadings. But that fact does not persuade; us
3

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 4

that the district court erred; as the district court implied, that fact may hurt Clancy’s
cause because it suggests that she could have understood the law and followed court
rules. And pro se litigants must follow the same procedural rules as other litigants.
Nielsen v. Price, 17 F.3d 1276, 1277 (10th Cir. 1994). We recognize that Clandy

does not think an amendment would have required more discovery, but the court’s
finding is supported by the defense’s statement that it would have sought another
deposition and another expert evaluation if the court had allowed the amendment.
B. Excluding Exhibits
After the defense moved for summary judgment, Clancy sent the district court
clerk a box that apparently contained her medical records from 2013 onward. The
district court directed the clerk not to file the exhibits unless Clancy sought and
received leave to file them under a local rule. Clancy responded by asking
permission to file the exhibits, pointing out that the magistrate judge had granted her
motion to file conventionally records that were too large to file electronically. Her
response did not, however, explain the relevance of the exhibits. The district court
entered an order explaining that the magistrate judge’s “order did not concern the
[current] situation,” that Clancy had not shown “that the record should be cluttered
with more than a thousand pages of medical records,” that the exhibits would not be
filed without leave, and that any motion seeking leave should explain the exhibits’
relevance to summary judgment. Suppl. R. at 76. After this order—and after the
court had granted summary judgment—Clancy again sought permission to file the

4

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 5

exhibits, insisting that the “medical records are absolutely necessary” but failing to
describe the information in them. Id. at 82. The court denied her request.
Under the district court’s local rules, “[b]ulky or voluminous materials should
not be filed in their entirety . . . unless the court finds the materials essential and
grants leave to file them. The court may strike any pleading or paper filed in
violation of this rule.” D. Kan. Rule 5.1(f). This rule supports the district
court’s decision to exclude Clancy’s exhibits until she sought and received leave to
file them. The court did not abuse its discretion. See Certain Underwriters, 781 F.3d
at 1230-31 (finding the court acted within its discretion when it rejected 700 pages of
exhibits that did not comply with local rules).
In addition to arguing that the district court improperly excluded her exhibits,
Clancy seeks to add them to the appellate record. “We undoubtedly have discretion
to deny a motion to supplement the record on appeal when the materials sought to be
added to the record were never before the district court.” Cornhusker Cas. Co. v.
Skaj, 786 F.3d 842, 862-63 (10th Cir. 2015). We exercise that discretion here and
deny Clancy’s motion, because the exhibits’ contents would not affect our analysis.
The district court did not exclude the exhibits based on their contents; it excluded
them because Clancy did not seek and obtain leave to file them. Because Clancy did
not describe to the district court what the exhibits say or explain how they relate to
the case, we could not fault the district court’s decision no matter the exhibits’ actual
contents. And having concluded that the district court acted within its discretion

5

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 6

when it excluded the exhibits, “we will not now consider [them] on appeal.” Certain
Underwriters, 781 F.3d at 1230.
C. The Surreply
Three days after the district court granted summary judgment, Clancy moved
for more time to file a surreply. The district court denied the motion, in part because
Clancy did not offer grounds supporting her request.
Courts should generally allow the nonmoving party to respond to material—
whether evidence or argument—that the movant raises for the first time in a reply.
Green, 420 F.3d at 1196. If a court does not rely on the new material, however, then
“it does riot abuse its discretion by precluding a surreply.” Id. (internal quotation
marks omitted).
The defense’s reply included exhibits related to Clancy’s claims that she told
her supervisors about her mental-health conditions and that her employment records
identified her as having a psychiatric disability. The district court assumed these
claims to be true in its summary-judgment analysis. So it did not rely on any new
material in the reply in granting summary judgment, and it did not abuse its
discretion by precluding a surreply. See id. Still, we will grant Clancy’s motion to
add her surreply to the record and consider it as we review the summary judgment,
rendering harmless any possible error in precluding the surreply.
II. Summary Judgment
We review de novo a district court’s decision to grant summary judgment,
applying the same standard governing the district court. Rivero v. Bd. of Regents of
6

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 7

Univ. o/N.M., 950 F.3d 754, 758 (10th Cir. 2020). Summary judgment is proper if
“there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). “We view all facts and evidence
in the light most favorable to the party opposing summary judgment.” Craft Smith,
LLCv. EC Design, LLC, 969 F.3d 1092,1099 (10th Cir. 2020) (internal quotation
marks omitted).
“The Rehabilitation Act prohibits the federal government from discriminating
against an ‘otherwise qualified individual with a disability.”’ Sanchez v. Vilsack,
695 F.3d 1174, 1177 (10th Cir. 2012) (quoting 29 U.S.C. § 794(a)). The
Rehabilitation Act incorporates the employment-discrimination standards in the
Americans with Disabilities Act (ADA), see 29 U.S.C. § 794(d), so cases addressing
ADA claims may inform our analysis, see Rivero, 950 F.3d at 758.
Clancy’s discrimination and hostile-work-environment claims require her to
show that she is a “qualified individual with a disability.” 29 U.S.C. § 794(a).1
“When the claim is for discrimination based on an actual disability, the plaintiff must
show ‘a physical or mental impairment that substantially limits one or more major
life activities.’” Tesone, 942 F.3d at 995 (quoting 42 U.S.C. § 12102(1)(A)).2 Major

1 We assume that Clancy may bring a hostile-work-environment claim under
the Rehabilitation Act.
2 A person can also establish a disability by showing a “record of such an
impairment” or that he or she is “regarded as having such an impairment.” 42 U.S.C.
§§ 12102(1 )(B), (C). At least at one point in the district court, Clancy claimed to
have both an actual disability and a record of one. She appears only to pursue her
claim of an actual disability on appeal, abandoning any claim based on a record of a
disability. In any event, Clancy has not identified any competent evidence showing
7

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 8

life activities include, for example, brain function, sleeping, “reading, concentrating,
thinking, communicating, and working.” 42 U.S.C. § 12102(2).
A plaintiff may show a disability through expert testimony. Tesone, 942 F.3d
at 996. Indeed, some cases require expert testimony: “where injuries complained of
are of such character as to require skilled and professional persons to determine the
cause and extent thereof, they must be proved by the testimony of medical experts.”
Id. at 997 (internal quotation marks omitted). But not every case requires expert
testimony: “when a plaintiff alleges an impairment that a lay jury can fathom
without expert guidance, courts generally do not require medical evidence to
establish an ADA disability.” Id. (internal quotation marks omitted).
Clancy submitted a letter from Dr. Richard Mulrenin, dated more than a year
after she resigned from Fort Riley. The letter says that she had been diagnosed with
major depressive disorder and PTSD, with “distressing symptoms including
depressed moods, acute anxiety, occasional suicidal ideation and a marked difficulty
concentrating.” R. vol. 1 at 25. The letter added that financial stress during the
preceding year had exacerbated her symptoms. Dr. Mulrenin’s progress notes from
October 7, 2015, about a month before Clancy ’s first day on the job, removed her
PTSD diagnosis and opined that she did not meet the criteria for major depression.
Clancy ultimately told the court, however, that she would not present any expert
testimony. The district court concluded that, without expert testimony, she could not

that the disability listed in her employment records substantially limited a major life
activity.
8

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 9

prove that her depression, anxiety, and PTSD substantially limited at least one major
life activity while she worked at Fort Riley.
We agree with the district court. As a lay witness, Clancy could describe her
symptoms—for example, that she has difficulty concentrating. See Felkins v. City of
Lakewood, 774 F.3d 647, 652 (10th Cir. 2014). She could not, however, “diagnose
her condition ... or state how that condition causes limitations on major life
activities, for those are clearly matters beyond the realm of common experience and
require the special skill and knowledge of an expert witness.” Id. (ellipsis and
internal quotation marks omitted). Without expert testimony to diagnose her
condition while she worked at Fort Riley, and further to link the diagnosis to a
limitation on a major life activity, Clancy did not offer enough evidence to create a
genuine dispute over whether she had an actual disability.
Because Clancy could not show an actual disability, we need not consider the
district court’s additional reasons for granting summary judgment.
IE. Costs
The district court ordered that the defense could recover costs from Clancy
and that she could recover nothing. Clancy does not explain, and we do not see,
why the court erred by awarding costs to the defense as the prevailing party under
Fed. R. Civ. P. 54(d)( 1). She does, however, assert that she should have received a
remedy under Fed. R. Civ. P. 56(h) because the defense submitted declarations in bad
faith. But she does not claim to have requested that remedy in the district court, and
our review of the record uncovered no such request. We do not consider this new
9

Appellate Case: 20-3036

Document: 010110448637

Date Filed: 12/08/2020

Page: 10

claim. See Tele-Commc'ns, Inc. v. Comm’r, 104 F.3d 1229, 1232 (10th Cir. 1997)
(“Generally, an appellate court will not consider an issue raised for the first time on
appeal.”).
IY. Conclusion
Clancy’s motion to supplement the record is granted in part (as to her surreply)
and denied in part (as to the exhibits). The district court’s judgment is affirmed.
Entered for the Court
Gregory A. Phillips
Circuit Judge

10

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS

JENITA CLANCY,
Plaintiff,
vs.

Case No. 18-4106-SAC-JPO

MARK T. ESPER, Acting
Secretary of Defense,
Defendant.
MEMORANDUM AND ORDER
This case is before the court upon defendant's motion for
summary

judgment.

Plaintiff

has

brought

an

action

alleging

employment and post-employment discrimination in violation of the
Rehabilitation Act.
I. Pro se standards
Plaintiff
pleadings

are

is

proceeding

to

be

pro

construed

se.

"A

liberally

pro

and

se

held

litigant's
to

a

less

stringent standard than formal pleadings drafted by lawyers." Hall
v.

Bellmon,

935

F.2d

1106,

1110

(10th Cir.

1991).

A pro

se

litigant, however, is not relieved from following the same rules
of procedure as any other litigant. See Green v, Dorrell, 969 F.2d
915, 917 (10th Cir. 1992).
II. Summary judgment standards
Summary

judgment

is

appropriate

if

discovery and disclosure materials on file,

1

the

pleadings,

the

and any affidavits

show "that there is no genuine issue as to any material fact and
that the movant
Fed.R.Civ.P.

is entitled to judgment

56(a).

as a matter if law."

"Unsupported conclusory allegations do not

create a genuine issue of fact."

L & M Enters.,

Inc,

v.

BE I

Sensors & Sys. Co., 231 F.3d 1284, 1287 (10th Cir. 2000).
An issue of fact is "genuine" if "there is sufficient evidence
on each side so that a rational trier of fact could resolve the
issue either way."

Adler v. Wal-Mart Stores, Inc., 144 F.3d 664,

670 (10th Cir. 1998) .

Credibility determinations may not influence

the court's decision.
66 (10th Cir. 2008) .
nonmovant.

Fogarty v. Gallegos, 523 F.3d 1147, 1165Disputed facts are resolved in favor of the

McCoy v. Meyers, 887 F.3d 1034, 1044 (10th Cir. 2018).

Defendant, as the movant for summary judgment, has the initial
burden of showing the absence of a genuine issue of material fact.
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).

This may be

done "by pointing out to the court a lack of evidence for the
nonmovant
Adler,

on

an

essential

144 F.3d at 671.

element

of

the

nonmovant's

claim."

If this burden is met, the burden then

shifts to plaintiff to demonstrate that genuine issues of material
fact remain for trial as to those matters for which plaintiff has
the burden of proof.

See McCoy, 887 F.3d at 1044.

Ill. Plaintiff's legal claims
According to the pretrial order, "plaintiff asserts that she
is entitled to recover upon the theory that she was subjected to
2

and

suffered

disability

environment/harassment

discrimination
based

on

and

a

hostile

psychiatric

work

disability

(specifically, PTSD, depression, and anxiety), in violation of the
Rehabilitation Act."

Doc. No. 112, p. 17.

Although plaintiff has

mentioned "retaliation" a few times in her response to the motion
for summary judgment,

retaliation against activity protected by

the Rehabilitation Act is not listed as a claim in the pretrial
order or supported by facts evident in the record.1
IV. The Rehabilitation Act
Section 501 of the Rehabilitation Act is the exclusive remedy
for plaintiff's claim of disability discrimination.
United States Postal Serv., 861 F.2d 1475, 1477
The

Rehabilitation

Act

is

interpreted

as

Johnson v.

(10th Cir. 1988).

incorporating

the

standards of the Americans with Disabilities Act (ADA). Wilkerson
v. Shinseki, 606 F.3d 1256, 1262 (10th Cir. 2010).

To establish a

prima facie case of discrimination, plaintiff must prove that:
at the time of the alleged discrimination,

1)

she had a disability

within the meaning of the Rehabilitation Act; 2) she was gualified
for her job;

and 3)

she suffered an adverse employment action

because of the disability.
1330,

1338

(10th Cir.

1997).

See id.; Woodman v. Runyon, 132 F.3d
The definition of disability under

the Rehabilitation Act is "a physical or mental impairment that

1 As noted in the pretrial order, the court in previous orders has denied
plaintiff's attempt to amend her claims to assert retaliation in violation of
Title VII.

3

constitutes or results in a substantial impediment to employment."
29 U.S.C. § 705(9).

The Rehabilitation Act also incorporates the

definition of "disability" under the ADA,

42 U.S.C.

§ 12101(1):

" (A) a physical or mental impairment that substantially limits one
or more major life activities of such individual;
such

an

impairment

impairment."

or

(C)

being

regarded

as

(B) a record of
having

such

an

Bent-Crumbley v. Brennan, 2020 WL 360437 *3 (6th Cir.

2020) .
V. Facts
Although,

contrary

to

Fed.R.Civ.P.

56(c) (1)

and

D.Kan.R.

56.1(a)&(b), plaintiff's opposition to the summary judgment motion
mostly fails to include usable references to the record, the court
has not applied a stringent standard in construing plaintiff's
response.

Fed.R.Civ.P.

56(c) (3)

permits the court to consider

uncited materials in the record and the court has done so.

With

that in mind, the court accepts the following facts as true solely
for the purposes of the summary judgment motion.
Plaintiff was employed at the commissary store at Fort Riley,
Kansas from November 15, 2015 to November 3, 2016, when plaintiff
resigned.

The store is part of a chain of commissaries providing

groceries to military personnel and others.
by the Defense Commissary Agency (DeCA).

The chain is operated
Before the job at Fort

Riley, plaintiff worked at Fort Leonard Wood in Missouri for DeCA.

4

At Fort Riley, plaintiff worked as a secretary in an office
which had five other administrative employees.

Plaintiff's first,

second and third-level supervisors were, respectively, Tina Groves
(Assistant

Commissary

Officer),

William

Rasco

Officer), and Jerome Katrenick (Zone Manager).
located at Fort Riley.

(the

Commissary

Katrenick was not

Rasco started at the Fort Riley Commissary

on March 20, 2016, a few months after plaintiff started.
Plaintiff's
administrative

job
duties,

supply related duties,
assign

description
personnel

included
and

payroll

and other duties
the

store

secretarial

as

secretary

liaison

assigned.

to

duties,
It was

acceptable

to

required.

It was a "very demanding job" according to Mr. Rasco.

Plaintiff has PTSD, depression and anxiety.

address

and

needs

as

She claims that

she told Groves and Rasco of these conditions in March 2016 and
other dates.

Plaintiff's doctor, Dr. Richard Mulrenin stated on

December 29, 2017, more than a year after plaintiff resigned, that:
I have been seeing Ms.
Clancy for psychotherapy
periodically since August 2013.
She is diagnosed with
Major Depressive Disorder and Posttraumatic Stress
Disorder. She experiences several distressing symptoms
including depressed moods, acute anxiety, occasional
suicidal ideation and a marked difficulty concentrating.
Some of her symptoms have been exacerbated by financial
stressors over the past year. On numerous occasions in
the past year, she has reported struggling to muster
enough concentration to read and understand forms and
other documents.
On October 7, 2015, about a month before plaintiff started at Fort
Riley, Dr. Mulrenin's progress notes stated:
5

While Ms. Clancy reports occasional symptoms associated
with PTSD, her symptoms have decreased in severity,
Given that she just met minimal symptoms for the
diagnosis previously, and these symptoms do not cause
significant distress or dysfunction, the diagnosis of
PTSD will be removed at present.
The progress notes from October 7, 2015 also state that plaintiff
did not meet the criteria for major depression at that time.
Plaintiff

never

requested

an

accommodation

for

her

conditions.
On March

20,

2016,

Rasco's

first

day

at

the

Fort

Riley

commissary, plaintiff was directed by Groves to work even though
it

was

a

Plaintiff

Sunday and not
took

a

day

off

a normal
during

working

the

week

day
to

for plaintiff.
accommodate

the

schedule change, but she did not receive Sunday premium pay for
working on a Sunday.

Plaintiff stated in her deposition that she

did not complain about it and is not complaining now.

Doc. No.

125-5, p. 15 (page 89 of plaintiff's deposition).
On May 14,

2016, Groves sent plaintiff an email indicating

that plaintiff had not timely submitted a report and that it could
risk employees' timely pay and leave.

The email stated that:

[g]oing forward failing to follow my instructions will
result in progressive action,
Please have both time
sheets turned into me on Tuesday morning. Thank you.
Plaintiff replied with an email stating that she was unable to do
the work because Groves'
Floor."

had assigned her other duties on "the

Plaintiff continued:

"I can't do my work if you keep

6

calling me in our office and you keep giving me other extra work,
I was [o]n the floor most [of] my Friday . .
Plaintiff admits that she received repeated poor reviews from
Groves in the summer and fall of 2016.
performance

counseling

meeting

Plaintiff's first formal

occurred

on

July

25,

2016.

Plaintiff received a rating of "fully successful" for the period
ending June 20, 2016.

Plaintiff also received a performance plan

for the period July 1, 2016 to June 30, 2017 and a letter regarding
performance issues.2

The letter, signed by Groves, identified 12

performance problems which Groves said she had addressed "multiple
times and they have not been corrected."
The twelve issues were:
On or about March 31, 2016, you missed a Headquarters
suspense on the submission of internal surveys.
On or about April 3, 2016, you failed to submit new hire
documents to me.
On or about April 5, 2016, you submitted incorrect 35-1
forms that had to be redone.
On or about May 25, 2016, you improperly contacted the
Headquarters Lead Consumer Safety Officer, on behalf of
the Commissary CAOs, to request that his emails include
UPCs.
The email submitted already included UPCs, but
regardless, it was improper for you to make this request
without discussing with management.
On or about May 27,
unable to complete
you were delayed
completing time and

2016, you identified that you were
your duties. You acknowledged that
one (1) month in organizing and
attendance, delayed in creating four

2 The performance plan was not a formal performance improvement plan (PIP) which
is part of the administrative process at DeCA to improve deficient work
performance.

7

(4) requests for personnel action (RPA), delayed in
processing documents for six (6) new employees, and
delayed in entering the customer distribution list.
On or about June 2, 106, (sic) you improperly submitted
leave documents to Headquarters for Casey Roseann.
On or about June 7, 2016, you tried to log access the
contracting website after you bad (sic) been trained and
notified that you did not have access.
On or about June 8, 2016, you improperly reported that
we had two (2) vacancies, when we actually had 20
vacancies, as you did not understand the Unit Manning
Document (UMD).
On or about June 13, 2016, you identified that you were
unsure about documenting notes of the staff meeting for
the week.
On or about June 16, 2016, you submitted an incomplete
resume for a new employee's background investigation.
On or about June 17, 2016, outdated information was found on the Commissary web page. You had been notified on or
about May 27, 2016-to update the web page.
On or about June 21, 2016, you missed a suspense to the
Zone Manager to report our vacancies.
The letter further stated:
I am hopeful that improvement of your performance will
occur and that no further action will be necessary.
If
you have any questions on your performance standards,
the information in this letter, or if you do not fully
understand my expectations of you, please ask me for
clarification.
In
order
for
you
to
perform
satisfactorily, you must note and correct the
listed, areas of concern. Future issues could result in
the initiation of other administrative actions.
As I have discussed with you previously, if you are
interested in a reassignment or change to lower grade to
a position better suited to your needs, please notify
me.

8

I do understand that from time to time there may be
tensions outside of the work environment that might
impact on the job conduct and performance.
If you are
experiencing personal concerns,
you may find the
services offered through the Employee Assistance Program
(EAP) may be beneficial ....
These
defensive

issues

were

discussed

and concerned that

Plaintiff was

not

terminated,

with

she was
nor was

plaintiff,
going

to

be

who

became

terminated.

she placed on a

formal

Performance Improvement Plan (PIP).
Plaintiff responded to the performance review with a letter
to Rasco dated August 8, 2016 which stated in part:
I am disappointed that you have found my performance
below your expectations in some areas.
It's very important to me to keep working on our team
and I am planning to do my very best to improve my
performance.
I would like to clarify and make sure I understand some
performance issues brought up on Memorandum written by
Mrs. Tina Groves.
The letter ended by requesting documents from Groves about
different job issues.

The letter did not complain of

discrimination.
Plaintiff has asserted

(although she's not "too positive")

that Groves asked plaintiff three or four times to step down to a
cashier's position and told plaintiff that the secretary position
was stressing plaintiff out and not good for her mental health.
Doc.

No.

125-5,

P-

26

(P-

104

Plaintiff was never demoted.
9

of

plaintiff's

deposition).

In October 2016,

Groves

gave plaintiff a

formal

progress

review on her performance plan, which identified a series of areas
where improvement was still needed.3

The progress review stated

in part:
Jenita I need you to improve on being timely in meeting
the needs of both external and internal customers. Take
more of an initiative to be more resourceful in finding
the solutions to improve customer relations in order to
contribute towards sales growth and promote the agency
in a positive image ... I need to see the sense of
urgency it takes when filling request[s] from internal
and external customers. You need to meet your suspenses
or deadlines ahead of time and not wait until the last
minute to complete.
Jenita you need to take ownership
of your actions including mistakes or errors ... I need
you to be meeting all suspenses and deadlines by properly
maintaining calendar items and suspense items as you
have missed several suspenses.
Your organizational
skills need to improve for you to become more efficient
in your everyday duties as you misplace or lose emails
or sometime[s]
just forget.
More improvement is
need[ed]
when
receiving
and
reviewing
all
incoming/outgoing correspondence and reports ... In
reviewing [Liaison Duties] I see you need [to] take more
of an independent stance on processing request [s] for
personnel action in a more timely manner. Please ensure
you are verifying the time and attendance records to
ensure all documentation is attached to the T&A, such as
Leave Request, OT Request, Certification sheet and/or
Tale Amendments . . . Always be mindful of safety and
security and slowdown in the office as [at] times I see
you running from your cubicle'to my office or Mr. Rasco's
office ... I know you [ ] are learning [Ordering and
Accountability] and are beginning to take on more
accounts, but be mindful of all the documentation you
must maintain such [as] invoices, accounts, receipts,
vouchers, 'logs, or journals. . .

3 According to plaintiff's response to the summary judgment motion, this was
preceded by two write-ups on September 28 and September 30, 2016.
Doc. No.
130, p. 54.

10

Plaintiff was resistant to Groves' monthly counseling meetings and
it appeared to Groves that plaintiff did not want to hear what she
was doing wrong or take ownership of her mistakes.
On November 3, 2016, Groves and Rasco met with plaintiff in
Rasco's

office.

Defendant

contends

that

during

the

meeting,

plaintiff's performance problems were discussed and plaintiff was
informed that she was to be placed on an official PIP.

Plaintiff

contends that a PIP was never a topic and that the only topic was
a news release that plaintiff had discussed with Mr.

Katrenick.

Plaintiff claims that Groves was not happy and threatened her with
insubordination.
angry,

Plaintiff

raised his voice,

further

asserts

that

Rasco

became

threatened and reprimanded plaintiff.

Plaintiff became upset or distressed and left the office.

When

she was told to return, she said, "Just fire me then," or words to
that

effect.

Witnesses

heard

plaintiff

Plaintiff denies that she said she quit.

say

that

she

quit.

Groves told plaintiff

that if plaintiff was resigning she needed to complete a Form SF52

Request

vomited.

for

Personnel

Action.

Plaintiff

became

sick

and

Later, although she did not complete the form, she wrote

a resignation letter which stated:
I am tendering my resignation effective today November
3, 2016. Thank you for all the support working with you
was a great opportunity.
Plaintiff has stated in her deposition that she was not forced or
directed to write the resignation letter,
11

but that she did so

because Groves was asking plaintiff to complete a SF-52 form.
No.

125-5,

pp.49-50

(pages

166-67

of

plaintiff's

Doc.

deposition).

After writing the letter, plaintiff told other people in the office
that she was quitting.

Rasco wrote a recommendation letter for

plaintiff after plaintiff's resignation because he felt she had
good qualities and would be an asset if hired in a customer service
situation.
On November 7,
resignation.

2016,

plaintiff

requested to withdraw her

This was denied, but plaintiff was told she could

apply for. any of the positions currently available at the store.
A secretary was hired to replace plaintiff.
replacement was hired that

Groves knew when the

she had a disability.

The current

secretary is often assigned tasks on the sales floor.
Plaintiff filed an application for unemployment benefits with
the Kansas Department of Labor
application was denied.
the

KDOL

plaintiff.
left

her

and

did

not

(KDOL)

after she resigned.

The

Rasco and Groves were not contacted by
provide

any

information

to

KDOL

about

Plaintiff claims that KDOL was told that plaintiff
job

over

a

disagreement

regarding

the

employer's

evaluation of her job performance and that plaintiff felt that she
could not work for her supervisors because they treated her badly.
After resigning, plaintiff wrote a very complimentary letter
regarding Rasco, but she stated:

"What I learned from Tina Groves

was anxiety and depression because she is always intimidating me."
12

VI. Plaintiff cannot establish that while employed by defendant
.she had a "disability" for the purposes of the Rehabilitation Act.
As

already

Rehabilitation

noted,

Act,

to

enjoy

plaintiff

disability," that is:

1)

must

protection

be

an

under

"individual

the

with

a

have a physical or mental impairment

that substantially limits one or more of her major life activities;
2) have a record of such impairment, or 3) be regarded as having
such

an

impairment.

Defendant

argues

that

to

establish

plaintiff had a disability at the relevant time of this
plaintiff must present expert testimony.

that
case,

Plaintiff, however, has

stated for the record (see Doc. No. 66) that she will not present
expert testimony.
the

summary

Plaintiff also has not disputed in response to

judgment motion

that

she

will

not

present

expert

testimony.
The court believes that expert testimony would be necessary
for

a

layperson

to

decide

whether

plaintiff's

alleged

PTSD,

depression and anxiety at the time of her employment substantially
limited her in one or more - of her major life activities.
conditions,

although part of common parlance,

are not

These
so well

understood and obvious to a common person that he or she could
plausibly reach a credible determination as to the nature and
extent

of

expert .
56

(10th

plaintiff's

disability

without

the

testimony

of

an

Cf., Russell v. Phillips 66 Co., 687 Fed.Appx. 748, 753Cir.

2017) (dismissing

13

relevance

of

lay

affidavits

regarding the limitations resulting from depression);
Centene

Management

Co.,

LLC,

2018

WL

4637270

O'Neal v.

*15

(D.Kan.

9/27/2018)(absence of medical evidence that generalized anxiety
disorder

or

GERD

significantly

limited

a

major

life

activity

prevented plaintiff from proving an actual impairment).
The

record

before

to

the

court

indicates

that

at

trial

plaintiff could not present admissible expert evidence that her
impairments substantially limited one or more of her major life
activities at the time of her employment.

Further, the nonmedical

evidence in the record fails to demonstrate that expert testimony
is unnecessary to establish that plaintiff had a disability for
the purposes of the Rehabilitation Act.

Plaintiff

has

argued

that she told Groves and Rasco of her mental conditions and that
she had a disability listing in her employment file.

Assuming

this is true, it is not sufficient to prove to a reasonable jury
that

plaintiff

had

a

record

of

a

mental

impairment

that

substantially limits one or more of her major life activities or
that she.was regarded as having such an impairment.
Because there is an absence of proof that plaintiff,
working at Fort Riley,

while

was an individual with a disability as

defined by the Rehabilitation Act, defendant is entitled to summary
j udgment.

14

VII. Plaintiff cannot demonstrate an adverse employment action.
Plaintiff's,discrimination claim requires proof of an adverse
employment action.
1040

(10th Cir.

See EEOC v. C.R. England, Inc., 644 F.3d 1028,

2011) .

An adverse

employment

action

requires

conduct resulting in a "significant change in employment status,
such as hiring,

firing,

failing to promote,

reassignment

with

significantly different responsibilities, or a decision causing a
significant change in benefits."

Id.

The adverse action must

cause more than a de minimis harm or impact.

Id.

Plaintiff has broadly argued that her immediate supervisor
made her work life miserable because of some unfair criticism or
blame,

excessive

oversight,

an

unreasonable

work

assignment,

unspecified threats or warnings, and closed-door meetings.4

But,

unless such conduct amounts to a hostile work environment or a
constructive discharge,

these allegations,

even if true,

do not

create a material issue of fact as to an adverse employment action.
See

Barton

v,

Zimmer,

Inc.,

662

F.3d

448,

453-54

(7th

Cir.

2011) (listing three categories of adverse employment actions:

1)

termination or

2)

reduction

in

financial

terms

of

employment;

transfers or changes in job duties that cause skills to atrophy

4 Plaintiff also alleges that she did not receive Sunday premium pay when she
worked one Sunday to assist Rasco's orientation on his first day on the job and
that one other time she may not have been properly compensated for training
time at a military base in Nebraska,
There is no evidence that either event
was a "significant change" in her pay or compensation or that she lost this
compensation or benefit because of discrimination.

15

and reduce future career prospects; and 3) unbearable changes in
job conditions

such as

hostile work environment

or conditions

amounting to constructive discharge).
"A hostile work environment is a workplace
discriminatory
sufficiently

intimidation,

severe

or

ridicule,

pervasive

to

and

alter

'permeated with
insult

the

that

conditions

employment and create an abusive working environment."

is
of

Dye v.

Moniz, 672 Fed.Appx. 836, 840 (10th Cir. 2016) (quoting Herrera v.
Lufkin Indus., Inc., 474 F.3d 675, 680 (10th Cir. 2007)).

A court

may look at the frequency of the alleged discriminatory conduct,
its severity, whether it is physically threatening or humiliating
or merely

an

offensive

utterance

and

whether

interferes with an employee's work performance.

it

unreasonably

Harris v. Forklift

Sys., Inc., 510 U.S. 17, 23 (1993).
Here,

plaintiff does not allege physically threatening or

humiliating
questions

or

conduct.
comments

Plaintiff
regarding

was
job

apparently

stress

offended

and EAP

by

resources.

These remarks were not in the realm of ridicule or excessively
abusive

or

environment.

demeaning.

Nor

did

they

permeate

the

workplace

Plaintiff seems most upset about criticism of her

job performance, the frequent monitoring by Groves and closed-door
meetings with Groves.

The Tenth Circuit affirmed the rejection on

summary judgment of a somewhat similar hostile work environment
claim in Trujillo v. University of Colorado Health Sciences Center,
16

157 F.3d 1211, 1214

(10th Cir. 1998).

In Trujillo, the plaintiff

complained of a supervisor who documented problems
performance,

criticized and checked on his work,

in his

job

and placed a

corrective action in his personnel file that warned him he needed
to improve his attendance.

The Tenth Circuit affirmed summary

judgment against the plaintiff's claim stating:
The hostile work environment that Plaintiff portrays is
simply a work environment that exhibits the monitoring
and job stress typical of life in the real world. Normal
job stress does not constitute a hostile or abusive work
environment. As the Seventh Circuit explained, federal
law "does not guarantee a utopian workplace, or even a
pleasant
one...
[P]ersonality
conflicts
between
employees are not the business of the federal courts."
Vore [v. Indiana Bell Tel. Co.,, 32 F.3d 1161, 1162 7th
Cir. 1994)]. We cannot vilify every supervisor that
implements a policy with which an employee disagrees or
that monitors her employees' conduct. Plaintiff has not
cited any cases that have found similar employer conduct
to constitute a racially hostile work environment, and
we decline to extend the contours of a "hostile work
environment"
to
include
Plaintiff's
alleged
job
situation.
157 F.3d at 1214.
Similarly,
that

in Dye,

the plaintiff's

unsatisfying

work

678 Fed.Appx.

complaints
assignments,

at 840,

the court stated

of a negative
and

a

job evaluation,

threatened

negative

performance evaluation were not sufficient to support a claim of
altered conditions of employment.
Corporate Services,

849 F.3d 889,

See also,
897

Williams v.

(10th Cir.

FedEx

2017) (evidence

that the plaintiff struggled under a heavy workload, received no
relief when he asked for help and experienced sarcasm and name17

calling by and disciplinary action from his supervisors, does not
suffice to show hostile work environment); Lujan v. Johanns, 181
Fed.Appx. 735, 738 (10th Cir. 2006)(restrictive leave policy, PIP,
and letters of warning did not create a hostile work environment);
Winn v. K.C. Rehabilitation Hosp.,
(D.Kan.

11/5/2015)(negative

evaluations,

numerous

job

meetings

Inc.,

2015 WL 6804045 *20-22

comments
with

and

management,

performance
excessive

scrutiny, and one meeting where supervisor yelled, hit his hand on
the table, and threatened to fire plaintiff, do not rise to the
level of a hostile work environment) ;

DeWalt v. Meredith Corp.,

484 F.Supp.2d 1188, 1198 (D.Kan. 2007)(written and oral reprimands
without impact upon responsibilities, pay or benefits do not amount
to an adverse employment action).
If plaintiff

could

establish that

she

was

constructively

discharged that would suffice as an adverse employment action.

In

this instance, plaintiff admits that no one forced her to write
her resignation letter, although she said she did so because she
was asked to complete a resignation form (which she did not do).
The

request

to complete

the

resignation

form,

in turn,

was

a

reaction to plaintiff's statement that she was quitting or words
to such effect.

This indicates that plaintiff had a free choice

of deciding whether or not to resign and that she cannot show she
was constructively discharged.

See Yearous v. Niobrara Cty. Mem'1

Hosp., 128 F.3d 1351, 1356 (10th Cir. 1997).
18

A constructive discharge "occurs when an employer unlawfully
creates working conditions so intolerable that a reasonable person
in

the

employee's

Strickland v.
(10th Cir.
obj ective:

position

would

United Parcel Service,

feel

forced

Inc.,

555 F.3d 1224,

2009)(interior quotation omitted).

to

resign."
1228

"The standard is

the employer's subjective intent and the employee's

subjective views on the situation are irrelevant."

Id.

Plaintiff's evidence and allegations indicate that she was
unused to receiving criticism of her work performance and that the
criticism she received, particularly from Groves, was upsetting.
Plaintiff's unhappiness, particularly during the November 3, 2016
meeting, does not establish a constructive discharge claim.

Bolden

v. PRC Inc., 43 F.3d 545, 552 (10th Cir. 1994).

Raised voices on

one or two occasions is not sufficient either.

Lopez v. Reser's

Fine Foods, Inc., 2013 WL 6587933 *3-4 (D.Kan. 12/16/2013).

It is

also relevant that plaintiff was not at that time on a formal PIP
plan

and

that

her

job

responsibilities,

pay,

benefits

and

environment had not changed in an objectively intolerable manner.
The Tenth Circuit's decision in Saville v. IBM, 188 Fed.Appx.
667 (10th Cir. 2006) provides some guidance.

There, the plaintiff

had' received a negative interim evaluation, his complaints about
his supervisor were not considered,

he was placed on a 30-day

performance improvement plan, and he was told he could stay on the
plan or retire with a severance package.
19

The plaintiff in Saville

retired, but later alleged that he was constructively discharged.
The Tenth Circuit affirmed the grant of summary judgment against
the constructive discharge claim.
Food,

Inc., 370 F.3d 423,

supervisors,

434

See also,

Williams v.

Giant

(4th Cir. 2004) (being yelled at by

given poor evaluations,

and chastised in front of

customers is not sufficient to show constructive discharge).
The court concludes that a reasonable jury could not find a
constructive discharge on this record.
because she disliked her supervisors'

Plaintiff may have resigned
conduct,

forced to resign because of her supervisors'

but she was not

conduct.

On this

basis, together with the other findings in this order, the court
decides that plaintiff cannot prove an adverse employment action.
The

court

wrongfully

acknowledges

denied

plaintiff's

unemployment

claim

benefits

that

because

she

was

defendant

inaccurately told KDOL that plaintiff left her job voluntarily for
what she considered bad treatment by her supervisors.
is not viable for two reasons.
adverse

employment

This claim

First, it does not constitute an

action.

Post-employment

opposition

to

unemployment benefits is not an adverse employment action because
it occurs after employment has ceased.5
Fe Ry. Co.

v. White,

548 U.S.

53,

Valley Unified School District,

64

See Burlington N. & Santa
(2006);

Bryant v.

2018 WL 6016924

*3-4

Covina(C.D.Cal.

5 Opposition to unemployment benefits may constitute retaliation,
Plaintiff,
however, has neither alleged nor produced any specific evidence showing
retaliation against conduct protected by the Rehabilitation Act.

20

1/10/2018) .
order,

Second, as discussed in further detail next in this

plaintiff

cannot prove

a discriminatory motive

for any

opposition to unemployment benefits.
VIII. Plaintiff cannot show that she was discriminated against on
the basis of her disability.
To succeed upon a disability discrimination claim, plaintiff
must show that any adverse employment action was taken against her
because of her disability.
1189

(10th Cir.

2005) .

Cummings v.

The

court

Norton,

agrees

with

393 F.3d 1186,
defendant

that

plaintiff has presented no direct evidence of such discrimination.
Direct evidence of discrimination in this case would be evidence
that

proves

without

inference

or

presumption

that

adverse

employment actions were taken against plaintiff because of her
disability.

See Riggs v. AirTran Airways,

1117 (10th Cir. 2007) .

Inc.,

497 F.3d 1108,

Suggesting that a job is stressing plaintiff

or that she might consider a cashier's position or that she might
think about EAP resources,

is not evidence which proves without

inference or presumption that plaintiff was discriminated against
because of her disability.

See Dodson v. Flying Dove, Inc., 2019

WL 1922153 *9 (D.Kan. 4/30/2019) aff'd, 2019 WL 6879149 (10th Cir.
12/17/2019) (statements of personal opinion exhibiting displeasure
with

pregnancy

are

not

direct

discrimination).

In

short,

there

evidence
is

disability discrimination in this record.

21

no

of

direct

pregnancy
evidence

of

Accordingly, the court

must move forward with an application of the McDonnell Douglas
burden-shifting framework to determine whether plaintiff can rely
upon indirect evidence to show discrimination.

Cummings, 393 F.3d

at 1189.
For the purposes

of argument,

plaintiff can establish a prima
Under McDonnell Douglas,

defendant

facie

case

has

assumed that

of discrimination.

if defendant is able to posit a valid

reason for an adverse employment action, then the burden is placed
back on plaintiff to show a genuine issue of fact as to whether
the defendant's stated reason was pretextual or unworthy of belief.
See Salguero v.
2004) .

City of Clovis,

366 F.3d 1168,

1175

(10th Cir.

Pretext can be shown:

by such weaknesses, implausibilities, inconsistencies,
incoherencies, or contradictions in the employer's
proffered legitimate reasons for its action that a
reasonable
factfinder
could
rationally
find
them
unworthy of credence and hence infer that the employer
did not act for the asserted non-discriminatory reasons.
In determining whether the proffered reason for a
decision was pretextual, we examine the facts as they
appear to the person making the decision, not the
plaintiff's subjective evaluation of the situation.
Thus, the relevant inquiry is not whether the employer's
proffered reasons were wise, fair or correct, but
whether it honestly believed those reasons and acted in
good faith upon those beliefs.
Lobato

v.

N.M.

Env't

Dep't,

733

F.3d

1283,

1289

(10th

Cir.

2013)(internal quotation marks, brackets and citations omitted).
Defendant argues that there was a legitimate business reason
to require plaintiff to work on Rasco's first day,

22

which was a

Sunday,

because

the

store

secretary

was

Rasco's

"right-hand

person" and the "point of contact" for the entire store.
further

argues

that

there

were

legitimate

reasons

Defendant
to

require

plaintiff to occasionally work on the store floor and that this
was within plaintiff's job description.
that

the

often

negative

informal

Defendant also contends
and

formal

performance

evaluations, counseling, warnings and instruction were warranted
by plaintiff's work problems as documented in writing.

Defendant

has supported these arguments with evidence in the record.
In

response,

plaintiff

argues

that

she

did

not

receive

negative comments from Groves until after she told Groves that she
had

a

disability

in March

2016.

Plaintiff

asserts

received positive job reviews at her previous jobs.

that

she

She also notes

that she was rated "fully successful" in the July 2016 evaluation,
that

she

was

not

placed

upon

PIP,

recommendation letter for Rasco.

and

that

she

received

a

Plaintiff further claims that

defendant did not follow DeCA policy in supervising plaintiff's
performance.

Finally, plaintiff argues repeatedly that Groves and

Rasco were motivated to criticize plaintiff because plaintiff had
negative information about their performance which she shared or
could share with their superiors.
The court finds that plaintiff has failed to create a genuine
issue of material fact as to pretext for the following reasons.
First, in retaliation cases, temporal proximity is not sufficient
23

to create a genuine issue of material fact as to whether an adverse
action was done in retaliation for protected conduct.
Lincare,

Inc.,

812 F.3d 1208,

1236 n.10

Lounds v.

(10th Cir. 2015); Annett

v. University of Kansas, 371 F.3d 1233, 1240-41 (10th Cir. 2004).
The same rule should apply here particularly since plaintiff was
relatively new on the job before she says she related to Groves
that she had a disability.

One could reasonably expect that a new

employee might not be criticized for her job performance as freely
as one who has been on the job longer.
Second,
j obs,

so

this

her

job was

prior

job

different

evaluations

from plaintiff's
do

not

indicate

previous
that

the

criticisms made by Groves and Rasco were motivated by illegal bias.
Third,

Groves

has

explained

in

an

affidavit

that

the

"fully

successful" rating in the July 2016 evaluation did not mean that
plaintiff did not have areas which required improvement.

Plaintiff

has not addressed Groves' statement other than to say that Groves
and Rasco did not follow DeCA policies.

The DeCA policies to which

plaintiff has referred, however, do not prohibit the counseling,
monitoring
performance.

and

other
The

steps
court

taken
sees

to
no

improve
conflict.

plaintiff's
Fourth,

job
the

recommendation written by Rasco after plaintiff resigned does not
show that the job criticism plaintiff received was disingenuous or
motivated by discrimination.

Rasco did not recommend plaintiff

for a position similar to that from which she resigned.
24

Fifth, Rasco's decision not to place plaintiff on PIP before
she resigned also does not demonstrate that the criticism of her
job

performance

was

illegitimate.

The

record

indicates

that

placing plaintiff on PIP was a potential next step had she not
first resigned.

The record does not indicate that placement on

PIP is a necessary condition before an employee's job performance 1
may

be

documented

as

substandard

or

may

be

criticized

by

a

supervisor.
Finally, plaintiff states that if the "truth" be told Groves
and

Rasco

were

superior or the

motivated

by

plaintiff's

statements

fear that plaintiff would make other negative

statements regarding their performance to a superior.
No.

130,

actions

pp.

to -their

21,

36,

41.

See Doc.

This indicates that the adverse job

alleged by plaintiff were not motivated by disability

discrimination.
In sum, plaintiff has failed to demonstrate a genuine issue
of material fact exists as to whether the nondiscriminatory reasons
given for the events which plaintiff contends amounted to a hostile
work

environment,

constructive

discharge,

or

other

adverse

employment action, are a pretext disability discrimination.
IX. Conclusion
For the above-stated reasons, defendant's motion for summary
judgment (Doc. No. 124) shall be granted.

25

IT IS SO ORDERED.
Dated this 10th day of February 2020, at Topeka, Kansas.

s/Sam A. Crow
Sam A. Crow, U.S. District Senior Judge

26

Case 5:18-ev-G4106-SAC Document 136 Filed 02/10/20 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF KANSAS
JUDGMENT IN A CIVIL CASE
JENITA CLANCY,
Plaintiff,

(

v.

CIVIL CASE: 18-4106-SAC

MARKT. ESPER, Acting
Secretary of Defense,
Defendant.
( )

JURY VERDICT. ' This action came before the Court for a trial by jury. The
issues have been tried and the jury has rendered its verdict.

(X)

DECISION BY THE COURT. This action came before the Court. The issues
have been considered and a decision has been rendered.

IT IS ORDERED AND ADJUDGED that pursuant to the Memorandum & Order (Doc.
135) filed February 10, 2020, defendant’s motion for summary judgment (Doc. No 1241
shall be granted.
IT IS FURTHER ORDERED AND ADJUDGED that the plaintiff recover nothing, the
action be dismissed, and the defendant, Mark T. Esper, recover costs from the plaintiff,
Jenita Clancy.
.Dated:

February 10, 2020

TIMOTHY M. O’BRIEN, CLERK
s/M. Barnes
By: Deputy Clerk

Additional material
from this filing is
available in the
Clerk's Office.

